 U.S. Department of the Interior
 Office of Inspector General




                   REPORT

DEPARTMENT OF THE INTERIOR ACTIVITIES
    TO COLLECT, REVIEW, AND USE
    INFORMATION THAT IDENTIFIES
    INDIVIDUALS WHO ACCESS THE
    DEPARTMENT’S INTERNET SITES

               REPORT NO. 01-I-340
                  APRIL 2001
        We shared with the agencies’ Web masters the results of our review. In most
cases, the Web masters began taking corrective actions.

If you have any questions concerning this report, please contact me at (202) 208-4252 or
Ms. Diann Sandy, Director of National Information Systems Office, at (303) 236-9243.



Attachment

cc:   Assistant Secretary for Policy, Management and Budget
      Assistant Secretary for Fish and Wildlife and Parks
      Assistant Secretary for Indian Affairs
      Assistant Secretary for Land and Minerals Management
      Assistant Secretary for Water and Science
      Director, Bureau of Land Management
      Commissioner, Bureau of Reclamation
      Director, Minerals Management Service
      Director, National Park Service
      Director, Office of Surface Mining Reclamation and Enforcement
      Director, U. S. Fish and Wildlife Service
      Director, U.S. Geological Survey
      Audit Liaison Officer, Policy, Management and Budget
      Audit Liaison Officer, Fish and Wildlife and Parks
      Audit Liaison Officer, Indian Affairs
      Audit Liaison Officer, Land and Minerals Management
      Audit Liaison Officer, Water and Science
      Audit Liaison Officer, Bureau of Land Management
      Audit Liaison Officer, Bureau of Reclamation
      Audit Liaison Officer, Minerals Management Service
      Audit Liaison Officer, National Park Service
      Audit Liaison Officer, Office of Surface Mining Reclamation and Enforcement
      Audit Liaison Officer, U.S. Fish and Wildlife Service
      Audit Liaison Officer, U.S. Geological Survey
                    REPORT ON
    DEPARTMENT OF THE INTERIOR ACTIVITIES TO
     COLLECT, REVIEW, AND USE INFORMATION
     THAT I DENTIFIES INDIVIDUALS WHO ACCESS
        THE DEPARTMENT’S INTERNET SITES
As required by Section 646 of the Treasury and General Appropriations Act,
2001, we reviewed the Department of the Interior’s (DOI) Web pages to
identify the DOI’s activities related to:

    §  Collecting or reviewing singular data or creating aggregate lists that
       include personally identifiable information about individuals who
       access any Internet site 1 of the DOI.
     § Entering into agreements with third parties, including other
        government agencies, to collect, review, or obtain aggregate lists or
        singular data containing personally identifiable information relating to
        any individual’s access or viewing habits of governmental and
        nongovernmental Internet sites.

                            RESULTS OF REVIEW
The DOI generally did not inappropriately collect personally
identifiable information on individuals who accessed its
Internet Web pages. Of the DOI’s more than 6,000 Web pages, we
reviewed 598, including the DOI’s 532 Internet sites. We found that generally
the DOI and its components and third parties did not collect, review, or obtain
singular data or create aggregate lists that included personally identifiable
information about individuals who accessed the DOI’s Web pages.
Additionally, we found that generally the DOI notified users when personally
identifiable information was being collected and explained its use of this
information. However, we found some exceptions in the Web pages
reviewed. These exceptions were as follows:

     §   “Cookies” were not disclosed to the Internet user on 29 Web pages.
     §   Web bugs existed on 12 Web pages.
     §   Of the 84 Web pages that collected personally identifiable
         information, 17 did not disclose to the Internet user all uses of this
         information.




1
 An Internet site is defined as an agency’s principal Web pages; other major entry points to
sites, including home pages of agency components and Web pages that receive a high number
of visits; and any Web page where substantial amounts of personal information are collected
or posted.
      §   Of the five third-party contractors that collected personally
          identifiable information, three did not disclose all uses of the collected
          information.

The details of our review are discussed in the paragraphs that follow.

“COOKIES” AND WEB BUGS

                                   We found that of the 598 Web pages
    Session or Persistent          reviewed, 17 had session “cookies”2 (see
    “Cookies” Used and Not         Appendix 1). Of these 17 Web pages, only 4
    Disclosed                      disclosed the use of session “cookies.” We
                                   also found 18 Web pages that had persistent
“cookies” (see Appendix 2). Of these 18 Web pages, 16 did not disclose to
the Internet user that persistent cookies were being used. In addition, agency
head approvals for these 18 Web pages were not provided to us. Rather than
providing us with agency head approvals, the Web masters removed the
persistent “cookies” from nine of the Web pages, and three Web pages could
no longer be accessed. We verified that as of April 17, 2001, these
12 persistent “cookies” no longer existed or the Web pages could not be
accessed. For the remaining six Web pages, we found that as of April 17,
2001:

     §    One Web page had been updated to disclose the use of a persistent
          “cookie.”
     §    Five Web pages continued to use persistent “cookies” without
          disclosure of their use.
     §    None of the six Web pages had agency head approval for the use of
          “cookies.”

We also followed up on the General Accounting Office’s report “Internet
Privacy: Federal Agency Use of Cookies,” issued in October 2000. In that
report, the General Accounting Office identified two DOI Web sites that
included session “cookies” (www.blm.gov and reservations.nps.gov) that were
not disclosed. As of April 17, 2001, we found that www.blm.gov no longer
had a session “cookie” but that reservations.nps.gov continued to have a
session “cookie” and the use of the session “cookie” was not disclosed.
National Park Service (NPS) management is addressing this issue.




2
 A “cookie” is a mechanism that the Web server uses to store a small piece of information o n
the client’s (user’s) computer. A session cookie is stored on the user’s computer only during
the browsing session. A persistent cookie is stored on the user’s computer during the
browsing session and remains after the session is closed.


                                              2
                                 We found that 12 of the 598 Web pages
  Web Bugs Were                  contained a Web bug3 (see Appendix 3).
  Detected                       Further, the use of the Web bug was not
                                 disclosed on the Web page privacy notice.
We contacted Chief Information Officer management and Web masters
regarding the use of Web bugs. In four of the cases, the Web bugs were
removed. We verified that as of April 17, 2001, the four Web bugs no longer
existed on these Web pages. In none of the 12 instances were we provided
information to support the use of the Web bug.

COLLECTING PERSONALLY IDENTIFIABLE INFORMATION

                                 Our audit staff, with the assistance of the DOI
  Personally Identifiable        and its components, identified that at least 84
  Information Collected          of the 598 Web pages collected personally
  and Not Always                 identifiable information. 4 We reviewed these
  Disclosed                      84 Web pages and found that 62 contained
                                 disclosures related to the use of the personally
identifiable information collected and 5 could not be accessed. Additionally,
the privacy notice statements on these 62 Web pages indicated that the
personally identifiable information collected was subject to disclosure but
would be handled in accordance with the requirements of the Privacy Act and
the Freedom of Information Act to ensure the greatest protection of personal
privacy in the event of any required disclosure. The privacy notice further
stated that unless required by law, the personally identifiable information
would not be shared with outside parties.

Of the 17 Web pages that collected personally identifiable information and
this fact was not disclosed, we found that 10 were for users to submit
comments or feedback to the agency. Personally identifiable information was
collected only if the user requested a response. Generally, the personally
identifiable information collected included the Internet users’ name, home
address, and electronic mailing address. The remaining seven Web pages
were for users to perform such actions as submitting applications for
positions, registering for conferences, and downloading application software.

    Personally Identifiable           Generally, Internet users that contact the DOI
    Information Collected             and its components electronically through
    and Disclosed When                Web pages to do activities such as to ask
    Submitting Questions              questions, provide feedback, fill out
    Electronically                    questionnaires, or sign guest books provided
                                      personally identifiable information

3
  A Web bug is a mechanism to store a small piece of information on the client computer that
can be shared with other sites. In the case of DOI, the Web bugs were third-party cookies
stored on the client computer by a software vendor and not the host of the Web page.
4
  These Web pages do not include Web sites addressed under the “Third Parties Collecting
Personally Identifiable Information” section of this report.


                                             3
voluntarily. Of the 598 Web pages, 310 included privacy notice statements.
If the Internet user wanted to contact the agency through a Web page, the
DOI’s privacy notice statements disclose the use of any personally identifiable
information collected. Further, these privacy notices provide the user
assurance that the personally identifiable information collected when
contacting the DOI or its components will not be shared with any entity
outside the DOI. Although the remaining 288 Web pages reviewed did not
contain privacy notice statements, these pages generally were not used to
contact the agency to ask questions (see Appendix 4).

THIRD PARTIES COLLECTING PERSONALLY IDENTIFIABLE
INFORMATION

We reviewed five Web pages that were maintained by third-party
organizations for the DOI. These Web pages were generally for the purposes
of transacting business with the Internet user. The following were the specific
purposes of these five Web pages:

   §   Purchasing Federal Duck Stamps
   §   Obtaining geological reference materials
   §   Adopting a wild horse or burro
   §   Making a reservation at a national park
   §   Purchasing a national park pass

All of these Web pages were able to collect Internet users’ viewing habits and
collect the users’ personally identifiable information. Additionally, not all of
these Web pages contained privacy statement notices. Specific details of
these Web pages are discussed in the paragraphs that follow.

                                  We were provided a copy of the agreement
 Personally Identifiable
                                  between the U.S. Fish and Wildlife Service
 Information Collected
                                  and its contractor that sold Federal Duck
 and Not Disclosed When
                                  Stamps. The contract did not address the
 Purchasing a Federal
                                  collection and/or distribution of the personally
 Duck Stamp
                                  identifiable information. Further, the
                                  contractor’s Web pages did not contain a
privacy statement that disclosed the use of the personally identifiable
information collected to purchase a Federal Duck Stamp or that stated whether
aggregate lists of viewing habits were shared or otherwise disclosed to other
parties. Additionally, for the Internet user to purchase a Federal Duck Stamp,
substantial personally identifiable information was needed, including a credit
card number. When we contacted contractor personnel, they stated that the
buyer information was not shared.

 Personally Identifiable             We received a copy of the agreement
 Information Collected for           between the U.S. Geological Survey and
 Geological References May           its geological reference material
 Be Shared                           contractor. The contractor’s Web page


                                        4
did include a privacy statement that indicated information may be shared.
When discussed with Geological Survey Information Technology
management, they said that the reference to the Federal Acquisition
Regulation clauses in the agreement prohibited the contractor from disclosing
or otherwise sharing the personally identifiable information and the Internet
users’ aggregate viewing habits that could be collected. In our review of the
Federal Acquisition Regulation clauses included in the agreement, we did not
find a reference that the contractor was prohibited from sharing or disclosing
personally identifiable information and the Internet users’ viewing habits.

                                 The Web pages maintained by a contractor for
 Personally Identifiable         adopting a wild horse or burro did not contain
 Information Collected           adequate privacy information regarding the
 but Not Disclosed When          use and disclosure of the personally
 Adopting a Wild Horse           identifiable information collected from the
 or Burro                        Internet user. This is of concern because two
                                 of the Web pages we reviewed contained a
Web bug that was a third-party software provider “cookie” and could be used
to share the Internet users’ viewing habits. Further, although we requested a
copy of the agreeme nt, we had not received a copy by the time we prepared
our report. The Web page where personally identifiable information was
collected required the applicants to provide the following:

   §   Name, address, telephone number, and electronic mailing address.
   §   Driver’s license number.
   §   Social security number.

We requested additional information regarding the use and disclosure of the
personally identifiable information collected. As of April 17, 2001, no
response had been received.

                                  Within the NPS’s reservation Web pages that
 Personally Identifiable          are maintained and operated by a contractor,
 Information Shared               we found that when making a reservation at
 With Outside Parties             Mammoth Cave the Internet users’ personally
 and Not Disclosed When           identifiable information could be shared with
 Making a Reservation at          outside parties. Further, the Web page did not
 a National Park                  explicitly state that the users’ personally
                                  identifiable information may be shared with a
party outside of the NPS and its contractor. The NPS and its contractor stated
that the users’ personally identifiable information would be provided to the
other third party only if the users acknowledged that they wanted additional
information about the Mammoth Cave area. We received a copy of the
agreement between the NPS and the organization that received the personally
identifiable information. The NPS has modified the contract to make it
explicit that once the user has been provided the information about Mammoth
Cave, the personally identifiable information collected will be destroyed.



                                       5
However, the Web page privacy notice was not modified to inform the
Internet users that their personally identifiable information may be shared.

                            The NPS contractor collected
 Internet Users’ Viewing
 Habits Shared When         personally identifiable information
 Purchasing a National      when an Internet user purchased a
 Park Pass                  national park pass. The contractor-
                            maintained Web site included a privacy
                            notice statement that disclosed that
Internet users’ viewing habits, in aggregate, may be shared for
research purposes with whomever the contractor chooses. The
NPS policy is to notify Internet users whenever the user leaves the
NPS Web page to visit a third party’s Web page unless the site has
been reviewed and approved by formal agreement. When Internet
users accessed the Web page to purchase a park pass, the users
were not warned that they were leaving the NPS Web page and
accessing a third-party Web page. We were not provided the
agreement between the NPS and its contractor for managing the
purchase of passes to national parks by the time we prepared our
report. Without the opportunity to review this formal agreement,
we were not able to determine whether the contractor had been
authorized by the NPS to share the Internet users’ personally
identifiable information or viewing habits with others.

SCOPE AND METHODOLOGY
We reviewed Web pages that were identified as major or principal entry
points by the DOI Web masters. In addition, we randomly selected other DOI
Web pages and Web pages or sites maintained by third parties. The Web
pages selected for the review were those in existence as of February 1, 2001.
We used an optional feature offered by the Microsoft browser to identify the
use of “cookies” and used Web bug detection software recommended by the
General Accounting Office. If we found evidence of the use of session or
persistent “cookies,” we reviewed the Web page for proper disclosure
information and requested proof of the agency head’s approval for the use of
persistent “cookies.”

This review was conducted in accordance with guidance provided by the
President’s Council on Integrity and Efficiency, issued specifically for this
review. Fieldwork was performed during January through April 2001 at the
Web master offices in Washington, D.C., and our office in Denver, Colorado.




                                       6
                                                                           APPENDIX 1


         Department of the Interior Web Pages Reviewed
                         That Used Session Cookies

                                                             Status as of
Bureau                Web Page Address                     April 17, 2001
BLM      http://www.adoptahorse.blm.gov              Session cookie disclosed
BLM      http://www.adoptahorse.blm.gov/adopt-       Session cookie disclosed
          app.asp
BLM      http://www.glorecords.blm.gov/              No change
BLM      http://www.id.blm.gov/                      Session cookie disclosed
DOI      http://www.doi.gov/non-profit/pppx.html     No change
MMS      http://www.gomr.mms.gov/homepg/fastfacts/   No change
          api/master.asp
MMS      http://www.mms.gov/query.asp                No change
NPS      http://reservations.nps.gov/                No change
USGS     http://earthexplorer.cr.usgs.gov/           Session cookie disclosed
USGS     http://earthexplorer.usgs.gov/              No change
USGS     http://edcnts11.cr.usgs.gov/metalite/       No change
          feedback.asp
USGS     http://edcsnw3.cr.usgs.gov/igdn/igdn.html   No change
USGS     http://interactive.usgs.gov/eft/logon.asp   No change
USGS     http://mitchnts1.cr.usgs.gov/               No change
USGS     http://ncgmpnt.er.usgs.gov/thematic/        No change
USGS     http://ratbert.wr.usgs.gov/products/        No change
          personnel.asp
USGS     http://ratbert.wr.usgs.gov/products/        No change
          personnel.aspy
                                                                            APPENDIX 2


         Department of the Interior Web Pages Reviewed
                      That Used Persistent Cookies


Bureau                 Web Page Address                Status as of April 17, 2001
BLM      http://nmreports.nm.blm.gov                  Could not access site
BLM      http://paria.az.blm.gov                      No change
BLM      http://www.ak.blm.gov/emplymnt.html          Persistent cookie removed
DOI      http://www.doi.gov/non-profit odx.html       No change
FWS      http://search.fws.gov                        Persistent cookie removed
FWS      http://www.nfws.org                          Persistent cookie removed
FWS      http://www.r6.fws.gov/btprairiedog/          Persistent cookie removed
NBC      http://nbc-heat.nbc.gov/                     No change - pending approval
NBC      http://www.nbc.gov                           Persistent cookie removed
NPS      http://www.nationalparks.org/                Site updated with disclosure
                                                        of persistent cookie
NPS      http://www.nps.gov/npf/corporate/Tl.htm      Page removed
OSMRE    https://ismdfmnt5.osmre.gov/osm1/login.cfm   No change
USGS     http://kaibab.wr.usgs.gov/                   No change
USGS     http://pubs.usgs.gov                         Persistent cookie removed
USGS     http://search.usgs.gov                       Persistent cookie removed
USGS     http://volcanoes.usgs.gov                    Persistent cookie removed
USGS     http://water.usgs.gov                        Persistent cookie removed
USGS     http://edcw2ks15.cr.usgs.gov/                No change
                                                                           APPENDIX 3


         Department of the Interior Web Pages Reviewed
                             That Had A Web Bug

                                                               Status as of
Bureau                      Web Page Address                  April 17, 2001
BLM         http://www.adoptahorse.blm.gov                  No change
BLM         http://www.adoptahorse.blm.gov/adopt- app.asp   No change
BLM         http://www.ntc.blm.gov/                         No change
BOR         http://www.lc.usbr.gov/                         No change
DOI         http://elips.doi.gov/                           Web bug removed
NPS         http://165.83.219.72/hafe/bookshop/index.cfm    Web bug removed
NPS         http://www.nps.gov/npf/corporate/Tl.htm         Page removed
USGS        http://biology.usgs.gov                         Web bug removed
USGS        http://biology.usgs.gov/wfrc                    No change
USGS        http://fresc.fsl.orst.edu/                      No change
USGS        http://vineyard.er.usgs.gov/                    No change
USGS        http://www.usgs.nau.edu/staff/                  Web bug removed
                                                                      APPENDIX 4
                                                                   Page 1 of Page 9

          Department of the Interior Web Pages Reviewed
             That Did Not Include A Privacy Statement


                                                               Status as of
 Bureau                      Web Page Address                 April 17, 2001
BIA        http://www.doi.gov/bia/aberdeen                    No change
BIA        http://www.doi.gov/bia/ack_res.html                No change
BIA        http://www.doi.gov/bia/aitoday                     No change
BIA        http://www.doi.gov/bia/ancestry                    No change
BIA        http://www.doi.gov/bia/ancestry.html               No change
BIA        http://www.doi.gov/bia/areas                       No change
BIA        http://www.doi.gov/bia/as-ia                       No change
BIA        http://www.doi.gov/bia/bar                         No change
BIA        http://www.doi.gov/bia/budget                      No change
BIA        http://www.doi.gov/bia/ecodev                      No change
BIA        http://www.doi.gov/bia/employment                  No change
BIA        http://www.doi.gov/bia/gaming                      No change
BIA        http://www.doi.gov/bia/information                 No change
BIA        http://www.doi.gov/bia/news                        No change
BIA        http://www.doi.gov/bia/non_profit/self-gov.html    No change
BIA        http://www.doi.gov/bia/ots                         No change
BIA        http://www.doi.gov/bia/realty                      No change
BIA        http://www.doi.gov/bia/self-determ                 No change
BIA        http://www.doi.gov/bia/tribegovserv                No change
BIA        http://www.doi.gov/bia/tribes                      No change
BIA        http://www.doi.gov/bia/tservices                   No change
BLM        http://azwww.az.blm.gov/rec.htm                    No change
BLM        http://www.adoptahorse.blm.gov/adopt-app.asp       No change
BLM        http://www.ntc.blm.gov/courses/courses.html        No change
BLM        http://www2.az.blm.gov/                            No change
BOR        http://www.usbr.gov/non_profit.html#Partnerships   No change
BOR        http://www.usbr.gov/water/coop.html                No change
DOI        http://cdserver.er.usgs.gov/                       No change
DOI        http://elips.doi.gov/                              No change
DOI        http://momentum.ios.doi.gov/email/doi.cfm          No change
DOI        http://safetynet.smis.doi.gov/                     No change
                                                                 APPENDIX 4
                                                              Page 2 of Page 9


                                                          Status as of
 Bureau                      Web Page Address            April 17, 2001
DOI       http://www.doi.gov/budget/                     No change
DOI       http://www.doi.gov/cgi-bin/swish/search.pl     No change
DOI       http://www.doi.gov/core/core.htm               No change
DOI       http://www.doi.gov/doi_plw.html                No change
DOI       http://www.doi.gov/febtc/                      No change
DOI       http://www.doi.gov/gpra/                       No change
DOI       http://www.doi.gov/gpra/stratpln.html          No change
DOI       http://www.doi.gov/htm/doijobs.html            No change
DOI       http://www.doi.gov/htm/pmanager/               No change
DOI       http://www.doi.gov/intl/                       No change
DOI       http://www.doi.gov/non-profit odx.html         No change
DOI       http://www.doi.gov/non-profit/edx.html         No change
DOI       http://www.doi.gov/non-profit/fax.html         No change
DOI       http://www.doi.gov/non-profit/index.html       No change
DOI       http://www.doi.gov/non-profit/lawx.html        No change
DOI       http://www.doi.gov/non-profit/nfax.htm.        No change
DOI       http://www.doi.gov/non-profit/pppx.html        No change
DOI       http://www.doi.gov/non-profit/volx.html        No change
DOI       http://www.doi.gov/nrl/                        No change
DOI       http://www.doi.gov/oait/links.htm              No change
DOI       http://www.doi.gov/oha/adr/adr2/htm            No change
DOI       http://www.doi.gov/oha/indexdec/htm            No change
DOI       http://www.doi.gov/oirm/records/               No change
DOI       http://www.doi.gov/onepage.htm                 No change
DOI       http://www.epa.gov/OWOW/heritage/rivers.html   No change
DOI       http://www.smis.doi.gov/                       No change
FWS       http://duckstamps.fws.gov                      No change
FWS       http://ecos.fws.gov/webpage/webpage_vip_       No change
           listed.html?&code=V&listings=0#A
FWS       http://search.fws.gov                          No change
FWS       http://www.fws.gov/r9estaff/newspdg.html       No change
FWS       http://www.r6.fws.gov/pfw/r6pfw4.htm           No change
FWS       http://www.r6.fws.gov/pfw/wy/wy5.htm           No change
FWS       http://www.duckstamp.com                       No change
                                                                   APPENDIX 4
                                                                Page 3 of Page 9


                                                            Status as of
 Bureau                     Web Page Address               April 17, 2001
FWS       http://www.nfws.org                              No change
FWS       http://www.r6.fws.gov/btprairiedog/              No change
MMS       http://www.gomr.mms.gov/homepg/offshore/         No change
           offshore.html
MMS       http://www.gomr.mms.gov/scripts/fastq.htm        No change
MMS       http://www.mms.gov/navbar.htm                    No change
MMS       http://www.mms.gov/query.asp                     No change
MMS       http://www.mms.gov/search.htm                    No change
NBC       http://nbc-heat.nbc.gov/                         No change
NBC       http://ideasec.nbc.gov                           No change
NBC       http://ideasec.nbc.gov/vendorsearch              No change
NBC       http://www.doi.gov/pam                           No change
NPS       http://www.nps.gov/alcatraz                      No change
NPS       http://165.83.219.72/hafe/bookshop/index.cfm     No change
NPS       http://www.nps.gov/interp/pksmart.htm            No change
NPS       http://www.nps.gov/npf/corporate/Tl.htm          Page removed
NPS       http://www.nps.gov/pub_att/pressrm.htm           No change
NPS       http://www1.nature.nps.gov/sindex.htm            No change
OSMRE     http://www.osmre.gov/index2.htm                  No change
OSMRE     http://www.osmre.gov/links.htm                   No change
OSMRE     http://www.osmre.gov/oc1.htm                     No change
OSMRE     http://www.osmre.gov/ocnews.htm                  No change
OSMRE     http://www.osmre.gov/osmaml.htm                  No change
OSMRE     http://www.osmre.gov/osmreg.htm                  No change
OSMRE     http://www.osmre.gov/search.htm                  No change
OSMRE     http://www.osmre.gov/statisti.htm                No change
OSMRE     https://ismdfmnt5.osmre.gov/osm1/login.cfm       No change
USGS      http://access.usgs.gov/                          No change
USGS      http://agdc.usgs.gov/                            No change
USGS      http://ak.water.usgs.gov/                        No change
USGS      http://ak.water.usgs.gov/Welcome/                No change
USGS      http://ak.water.usgs.gov/Welcome/employees.htm   No change
USGS      http://ardf.wr.usgs.gov/                         No change
USGS      http://aslwww.cr.usgs.gov/                       No change
                                                                        APPENDIX 4
                                                                     Page 4 of Page 9


                                                                 Status as of
 Bureau                       Web Page Address                  April 17, 2001
USGS      http://bard.wr.usgs.gov/                              No change
USGS      http://biology.usgs.gov/wfrc                          No change
USGS      http://biology.usgs.gov/wfrc/crrlhome/crrlhome.html   No change
USGS      http://biology.usgs.gov/wfrc/crrlhome/staff.html      No change
USGS      http://biology.usgs.gov/wfrc/ia.htm                   No change
USGS      http://biology.usgs.gov/wfrc/profiles.htm             No change
USGS      http://capp.water.usgs.gov/                           No change
USGS      http://chht-ntsrv.er.usgs.gov/                        No change
USGS      http://cindi.usgs.gov/                                No change
USGS      http://clearinghouse4.fgdc.gov/                       No change
USGS      http://coast-enviro.er.usgs.gov/                      No change
USGS      http://coralreef.gov/                                 No change
USGS      http://crusty.er.usgs.gov/                            No change
USGS      http://ct.water.usgs.gov/                             No change
USGS      http://earthexplorer.cr.usgs.gov/                     No change
USGS      http://edc.usgs.ceos.org/ceos.html                    No change
USGS      http://edc.usgs.gov/programs/NSLRSDA.html             No change
USGS      http://edc.usgs.gov/srord-link.html                   No change
USGS      http://edc.usgs.gov/tour/welcome.html                 No change
USGS      http://edcdaac.usgs.gov/                              No change
USGS      http://edcdgs9.cr.usgs.gov/                           No change
USGS      http://edcintl.cr.usgs.gov/adds/adds.html             No change
USGS      http://edcnts11.cr.usgs.gov/                          No change
USGS      http://edcnts11.cr.usgs.gov/metalite/feedback.asp     No change
USGS      http://edcnts12.cr.usgs.gov/ned/                      No change
USGS      http://edcnts2.cr.usgs.gov/                           No change
USGS      http://edcnts9.cr.usgs.gov/                           No change
USGS      http://edcsns15.cr.usgs.gov/                          No change
USGS      http://edcsns16.cr.usgs.gov/                          No change
USGS      http://edcsnw3.cr.usgs.gov/                           No change
USGS      http://edcsnw3.cr.usgs.gov/gha/gha.html               No change
USGS      http://edcsnw3.cr.usgs.gov/igdn/igdn.html             No change
USGS      http://edcsnw4.cr.usgs.gov/                           No change
                                                                                APPENDIX 4
                                                                             Page 5 of Page 9


                                                                         Status as of
 Bureau                      Web Page Address                           April 17, 2001
USGS      http://edcwww.cr.usgs.gov/earthshots/                         No change
           slow/tableofcontents
USGS      http://edcwww.cr.usgs.gov/l7dhf/                              No change
USGS      http://energy.cr.usgs.gov/                                    No change
USGS      http://energy.cr.usgs.gov/lillis/                             No change
USGS      http://energy.cr.usgs.gov/radon/                              No change
USGS      http://energy.er.usgs.gov/                                    No change
USGS      http://energy.usgs.gov/west.html                              No change
USGS      http://erp-web.er.usgs.gov/                                   No change
USGS      http://fresc.fsl.orst.edu/                                    No change
USGS      http://fresc.fsl.orst.edu/contact/contact.htm                 No change
USGS      http://fresc.fsl.orst.edu/Crater_Project/crater.htm           No change
USGS      http://fresc.fsl.orst.edu/fffacts/moths/moths.htm             No change
USGS      http://fresc.fsl.orst.edu/fffacts/willowfly/wifl_index.htm    No change
USGS      http://fresc.fsl.orst.edu/field_stations/                     No change
           canyonlands/index.html
USGS      http://fresc.fsl.orst.edu/field_stations/olympic/index.html   No change
USGS      http://fresc.fsl.orst.edu/metadata/metadata.htm               No change
USGS      http://fresc.fsl.orst.edu/moss_project/index.htm              No change
USGS      http://fresc.fsl.orst.edu/online/online_docs/amphibians.pdf   No change
USGS      http://fresc.fsl.orst.edu/textonly/contact/contact.htm        No change
USGS      http://fresc.fsl.orst.edu/textonly/metadata/metadata.htm      No change
USGS      http://fresc.fsl.orst.edu/zooplankton/zooindex.htm            No change
USGS      http://ga.water.usgs.gov/                                     No change
USGS      http://geology.wr.usgs.gov/docs/geologic/                     No change
           Fort.Irwin.ES.web/Fort.Irwin.html
USGS      http://geology.wr.usgs.gov/gump/                              No change
USGS      http://geology.wr.usgs.gov/MojaveEco/                         No change
USGS      http://geology.wr.usgs.gov/wgmt/                              No change
USGS      http://geology.wr.usgs.gov/wgmt/lasvegas/lvmap.html           No change
USGS      http://geology.wr.usgs.gov/wgmt/                              No change
           nationalparks/NatParks.html
USGS      http://geology.wr.usgs.gov/wgmt/ncaltransect/nctmap.html      No change
USGS      http://geology.wr.usgs.gov/wgmt/pacnw/pnwmap.html             No change
USGS      http://geomac.usgs.gov/                                       No change
                                                                            APPENDIX 4
                                                                         Page 6 of Page 9


                                                                     Status as of
 Bureau                       Web Page Address                      April 17, 2001
USGS      http://geomag.usgs.gov/                                   No change
USGS      http://geonotes.wr.usgs.gov/hazardconf/regform.html       No change
USGS      http://gisdata.usgs.gov/                                  No change
USGS      http://grid.cr.usgs.gov/                                  No change
USGS       cgi-bin/guestbook?grid.conf
          http://hvo.wr.usgs.gov/earthquakes/felt/                  No change
USGS      http://hvo.wr.usgs.gov/earthquakes/felt/reportform.html   No change
USGS      http://il.water.usgs.gov/                                 No change
USGS      http://infolink.cr.usgs.gov/                              No change
USGS      http://interactive.usgs.gov/eft/logon.asp                 No change
USGS      http://landsat7.usgs.gov/software/formias.html            No change
USGS      http://landsat7.usgs.gov/software/formlps.html            No change
USGS      http://landslides.usgs.gov/                               No change
USGS      http://ma.water.usgs.gov/                                 No change
USGS      http://mapping-ak.wr.usgs.gov/research.html               No change
USGS      http://mi.water.usgs.gov/                                 No change
USGS      http://minerals.usgs.gov/west/menlo.html                  No change
USGS      http://minerals.usgs.gov/west/notablepeople.html          No change
USGS      http://minerals.usgs.gov/west/people.html                 No change
USGS      http://minerals.usgs.gov/west/projectlisting.html         No change
USGS      http://minerals.usgs.gov/west/spokane.html                No change
USGS      http://minerals.usgs.gov/west/tucson.html                 No change
USGS      http://mitchnts1.cr.usgs.gov/                             No change
USGS      http://motion.wr.usgs.gov/                                No change
USGS      http://narl.er.usgs.gov/                                  No change
USGS      http://nationalatlas.gov/survey/                          No change
USGS      http://ncgmp.cr.usgs.gov/ncgmp/lvuc/lvuc.htm              No change
USGS      http://ncgmp.usgs.gov/                                    No change
USGS      http://ncgmpnt.er.usgs.gov/thematic/                      No change
USGS      http://ne.water.usgs.gov/                                 No change
USGS      http://nrmsc.usgs.gov/                                    No change
USGS      http://nsdi.usgs.gov/                                     No change
USGS      http://nsmp.wr.usgs.gov/                                  No change
USGS      http://nsmp.wr.usgs.gov/GEOS/geos.html                    No change
USGS      http://ok.water.usgs.gov/                                 No change
                                                                       APPENDIX 4
                                                                    Page 7 of Page 9


                                                                Status as of
 Bureau                        Web Page Address                April 17, 2001
USGS      http://online.wr.usgs.gov/kiosk/comments.html        No change
USGS      http://pa.water.usgs.gov/                            No change
USGS      http://pdsimage.wr.usgs.gov/ATLAS.html               No change
USGS      http://pubs.usgs.gov                                 No change
USGS      http://quake.wr.usgs.gov/                            No change
USGS      http://quake.wr.usgs.gov/research/internship.html    No change
USGS      http://ratbert.wr.usgs.gov/products/personnel.asp    No change
USGS      http://ratbert.wr.usgs.gov/products/personnel.aspy   No change
USGS      http://ris.wr.usgs.gov/                              No change
USGS      http://rockyweb.cr.usgs.gov/                         No change
USGS      http://s601dcascr.wr.usgs.gov/Sites/                 No change
USGS      http://sc.water.usgs.gov/                            No change
USGS      http://sd.water.usgs.gov/                            No change
USGS      http://seeps.wr.usgs.gov/                            No change
USGS      http://sfbay.wr.usgs.gov/                            No change
USGS      http://sfbay.wr.usgs.gov/access/bioavail/            No change
USGS      http://sfbay.wr.usgs.gov/access/wqdata/              No change
USGS      http://sfgeo.wr.usgs.gov/                            No change
USGS      http://srfs.wr.usgs.gov/                             No change
USGS      http://srfs.wr.usgs.gov/library.htm                  No change
USGS      http://srfs.wr.usgs.gov/projects.htm                 No change
USGS      http://srfs.wr.usgs.gov/staff.htm                    No change
USGS      http://time.er.usgs.gov/                             No change
USGS      http://tn.water.usgs.gov/                            No change
USGS      http://toxics.usgs.gov/                              No change
USGS      http://tundra.wr.usgs.gov/wrmrsAK                    No change
USGS      http://tx.usgs.gov/                                  No change
USGS      http://usgsprobe.cr.usgs.gov/                        No change
USGS      http://ut.water.usgs.gov/faq/faq.html                No change
USGS      http://ut.water.usgs.gov/infores/gwdatareq.html      No change
USGS      http://ut.water.usgs.gov/infores/sfdatareq.html      No change
USGS      http://ut.water.usgs.gov/infores/wqdatareq.html      No change
USGS      http://ut.water.usgs.gov/infores/wwwquestion.html    No change
USGS      http://ut.water.usgs.gov/WR.UT.html                  No change
                                                                                 APPENDIX 4
                                                                              Page 8 of Page 9


                                                                          Status as of
 Bureau                        Web Page Address                          April 17, 2001
USGS      http://va.water.usgs.gov/index.html                            No change
USGS      http://volcanoes.usgs.gov                                      No change
USGS      http://vulcan.wr.usgs.gov/                                     No change
USGS      http://wa.water.usgs.gov/                                      No change
USGS      http://water.usgs.gov                                          No change
USGS      http://water.usgs.gov/nrp/proj.bib/                            No change
USGS       sav/wethome.htm
          http://water.usgs.gov/software/                                No change
USGS      http://webdata.fsl.orst.edu/fresc/administrative/current.php   No change
USGS      http://wildfire.usgs.gov/                                      No change
USGS      http://woodshole.er.usgs.gov/operations/sfmapping              No change
USGS      http://wrgis.wr.usgs.gov/docs/geologic/                        No change
           Fort.Irwin.ES.web/Fort.Irwin.html
USGS      http://wrgis.wr.usgs.gov/docs/gump/gump.html                   No change
USGS      http://wrgis.wr.usgs.gov/docs/parks/project/interp.html        No change
USGS      http://wrgis.wr.usgs.gov/king-sized-coprolite.html             No change
USGS      http://wrgis.wr.usgs.gov/MojaveEco/                            No change
USGS      http://wrgis.wr.usgs.gov/parks                                 No change
USGS      http://wrgis.wr.usgs.gov/techniques                            No change
USGS      http://wrgis.wr.usgs.gov/wgmt/elnino/                          No change
USGS      http://www.aqd.nps.gov/grd/usgsnps/project/home.html           No change
USGS      http://www.arcpartners.org/                                    No change
USGS      http://www.avo.alaska.edu/                                     No change
USGS      http://www.cac.gov/                                            No change
USGS      http://www.cerc.usgs.gov/                                      No change
USGS      http://www.cfr.washington.edu/research.usgs/                   No change
           cascadia/contact.htm
USGS      http://www.cfr.washington.edu/research.usgs/                   No change
           cascadia/metadata.htm
USGS      http://www.cfr.washington.edu/research.usgs/                   No change
           cascadia/people/darryll.htm
USGS      http://www.cfr.washington.edu/research.usgs/                   No change
USGS       cascadia/people/dave.htm
          http://www.cfr.washington.edu/usgs/cascadia/                   No change
USGS      http://www.fcsc.usgs.gov/                                      No change
USGS      http://www.geoall.net/                                         No change
USGS      http://www.geophys.washington.edu/USGS                         No change
                                                                   APPENDIX 4
                                                                Page 9 of Page 9


                                                            Status as of
 Bureau                      Web Page Address              April 17, 2001
USGS      http://www.glsc.usgs.gov/                        No change
USGS      http://www.gsdi.org/                             No change
USGS      http://www.mbr-pwrc.usgs.gov/                    No change
USGS      http://www.mesc.usgs.gov/butterfly               No change
USGS      http://www.mp1-pwrc.usgs.gov/                    No change
USGS      http://www.mp2-pwrc.usgs.gov/                    No change
USGS      http://www.pwrc.usgs.gov/                        No change
USGS      http://www.usgs.nau.edu/carnivore/pres_org.htm   No change
USGS      http://www.usgs.nau.edu/staff/                   No change
USGS      http://www.werc.usgs.gov/                        No change
USGS      http://www.werc.usgs.gov/boxsprings/             No change
USGS       people.html
          http://www.werc.usgs.gov/chis/index.html         No change
USGS      http://www.werc.usgs.gov/dixon/people.html       No change
USGS      http://www.werc.usgs.gov/gg/ggpeople.html        No change
USGS      http://www.werc.usgs.gov/hq/people.html          No change
USGS      http://www.werc.usgs.gov/lasvegas/people.html    No change
USGS      http://www.werc.usgs.gov/pb/people.html          No change
USGS      http://www.werc.usgs.gov/pt.reyes/index.html     No change
USGS      http://www.werc.usgs.gov/redwood/personnel.htm   No change
USGS      http://www.werc.usgs.gov/sandiego/people.html    No change
USGS      http://www.werc.usgs.gov/santacruz/people.html   No change
USGS      http://www.werc.usgs.gov/sdfs/people.html        No change
USGS      http://wwwaux.cerc.cr.usgs.gov/spmd/             No change
USGS      http://wwwnwql.cr.usgs.gov/                      No change
USGS      http://wwwrcamnl.wr.usgs.gov/                    No change
USGS      http://wwwrcolka.cr.usgs.gov/                    No change
USGS      http://wy.water.usgs.gov/                        No change
USGS      http://edcw2ks15.cr.usgs.gov/                    No change
                     ILLEGAL OR WASTEFUL ACTIVITIES
                         SHOULD BE REPORTED TO
                    THE OFFICE OF INSPECTOR GENERAL



                       Internet Complaint Form Address


                     http://www.oig.doi.gov/hotline_form.html


                     Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                    Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
           HOTL IN E
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
